          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Implementation of Integrated Safety
Management at Lawrence Livermore
National Laboratory




DOE/IG-0797                             July 2008
                             Department of Energy
                                 Washington, DC 2 0 5 8 5

                                 J u l y 2 , 2008


MEMORANDUM FOR

FROM:
                          lnspector General

SUBJECT:                  INFORMATION: Audit Report on "Impletnentation of
                          Integrated Safety Management at Lawrence Livermore National
                          Laboratory"

BACKGROUND

Safety is one of the Department of Energy's top priorities. In 1996. the Department of
Energy established an Integrated Safety Management (ISM) system whereby its
contractors plan, perform, assess, and innprove the safe conduct of work. However, due
to inconsistent implementation of ISM and recurring deficiencies that led to s e r i o ~ ~ s
accidents, the Department issued guidance in 2001 and 2006 to assist contractors in their
implementation of ISM and to improve safety. As part of ISM, the Department requires
contractors to: 1) develop and implement controls over identified hazards, 2) perform
work within defined hazard controls, and 3) provide feedback on and continuous
improvement to safety systems.

The Lawrence Livermore National Laboratory (Livermore) is a government-owned,
contractor-operated facility which is part of the Department of Energy's National Nuclear
Security Administration (NNSA). A key mission of the Laboratory is to ensure the
safety, reliability, and performance of the national nuclear weapons stockpile. To meet
its mission, Livermore employees perform a wide variety of tasks some of which place
workers in or near hazardous conditions or materials. Since 2003, Livermore has
experienced an above average illness and injury rate. relative to other sites within the
Department's nuclear weapons complex. B e c a ~ ~ of s e the emphasis that you and the
NNSA Administrator have placed on worker safety. we initiated an audit to determine if
Livernlore had fully implemented an ISM system.

RESULTS OF AUDIT

We concluded that Livernlore had not fully implemented an ISM system to improve its
safe conduct of work. Specifically, we examined three safety incidents and found that
Livermore had not always:

      Developed and implemented controls to eliminate hazards;
      Performed work within defined controls; and,
      Provided feedback to managers about identified hazards or aggressively pursued
      continuous improvement in safety.
These incidents involved a near-miss incident associated with hoisting and rigging heavy
equipment, a fall from a ladder, and radiation exposure.

We found that Livermore did not always analyze safety issues to determine the extent of
condition and root cause. For example, even though Livennore had multiple safety
deficiencies involving non-standard ladders over a three year period, it had not performed
an "extent of condition" analysis that would have indicated the existence of a systemic
problem. Livennore's ability to fully analyze and resolve safety concerns was limited by
missing and inconsistent data in its system to track safety issues.

In addition, NNSA's Livennore Site Office (LSO) did not ensure that contractor
performance measures associated with safety encouraged in~proven~ent       in Livermore's
implementation of ISM. Although Livennore continued to have a higher than average
illness and injury rate since 2003, LSO had not adjusted Livermore's performance
measures, or related fees, to establish quantifiable rate reduction goals. We concluded
that until Livermore implements an effective ISM system, NNSA cannot be assured that
future worker-related illnesses and injuries will be prevented. The implications of
preventable accidents occurring are significant, both in terms of lost productivity and
personal pain and suffering.

On October 1 , 2007, the contract to operate Livermore transitioned to a new contractor,
Lawrence 1,ivermore National Security, LLC. The new performance-based contract
includes measures and incentives for the completion of specific safety initiatives that if
effectively implemented would address a number of issues discussed in this report. For
example, LSO included a performance measure to reduce the number of illnesses and
injuries at Livermore. In addition, the new contractor has announced the establishment of
workshops to identify opportunities for safety improvements and is developing a
contractor assurance system to address and facilitate needed improvements in ISM.
While these are positive steps, our report includes additional actions that can be taken to
improve safety at Livennore.

MANAGEMENT REACTION AND AUDITOR COMMENT

Management generally agreed with the report and recommendations. However,
management disagreed with our statements regarding the application of safety metrics
relevant to the contractor's performance fee. Management's specific comments and our
reaction are discussed in the body of this report. Management comments have been
provided in their entirety in Appendix 3.

Attachment

cc:   Acting Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff
REPORT ON THE IMPLEMENTATION OF INTEGRATED SAFETY
MANAGEMENT AT LAWRENCE LIVERMORE NATIONAL
LABORATORY


TABLE OF
CONTENTS

        Recurring Safety Incidents

        Details of Finding ....................................................................1

        Recommendations and Comments...........................................7

        Appendices

        1. Objective, Scope, and Methodology...................................9

        2. Related Audit Reports.......................................................10

        3. Management Comments ...................................................12
Integrated Safety Management at Livermore_____________________

Recurring Safety    The National Nuclear Security Administration's (NNSA)
Incidents           Lawrence Livermore National Laboratory (Livermore)
                    sustained an above-average injury rate within the
                    Department of Energy's (Department) nuclear weapons
                    complex during Fiscal Years (FY) 2003 to 2007. In
                    particular, Livermore experienced three significant safety
                    accidents and incidents involving a fall from a ladder,
                    radiation exposure, and a near-miss incident associated
                    with hoisting and rigging heavy equipment. We analyzed
                    these safety accidents and incidents to determine whether
                    weaknesses in Livermore's implementation of Integrated
                    Safety Management (ISM) requirements contributed to
                    their occurrence.

Weaknesses In       We determined that Livermore had not fully implemented
ISM System of       its ISM system to improve the safe conduct of work.
Controls            Specifically, Livermore had not always: (1) developed and
                    implemented hazard controls; (2) performed work within
                    hazard controls; and, (3) provided feedback and continuous
                    improvement, which contributed to the three significant
                    safety incidents.

                                    Developing Hazard Controls

                    Livermore did not always develop and implement hazard
                    controls over work processes. On July 31, 2006, an
                    employee using a non-standard, permanently affixed ladder
                    to perform roof maintenance fell approximately six feet to
                    the ground. He sustained multiple fractures and was
                    hospitalized for 26 days. Prior to this accident, Livermore
                    had identified at least six safety deficiencies related to the
                    use of non-standard, permanently affixed ladders. In fact,
                    two of these identified safety deficiencies involved
                    inadequate handrail spacing; the other four deficiencies
                    involved issues such as non-standard rung spacing. Rather
                    than implementing controls on a Laboratory-wide basis for
                    all non-standard ladders, Livermore implemented hazard
                    controls for each deficiency by removing the specific
                    ladder from service. Had Livermore developed and
                    implemented adequate hazard controls on a Laboratory-
                    wide basis, this accident may have been prevented.




Page 1                                                        Details of Finding
________________________________________________________________

                     In another case, Livermore had not developed and
                     implemented appropriate controls over a hazard posed by a
                     glove-box that exceeded radiation limits. On August 19,
                     2004, a repackaging activity involving a transuranic waste
                     drum was being conducted inside a vendor designed glove-
                     box. As a result of inadequate containment by the glove-
                     box, contamination was released and four employees
                     working in or near the glove-box area were exposed to
                     radiation levels exceeding control limits. Prior to this
                     exposure, however, eight occurrences of contamination
                     levels exceeding the control limits had been detected and
                     reported in the same work area. According to Livermore,
                     the glove-box had been used at other Department sites and
                     had known radioactive contamination that prevented
                     Livermore from safety pressure testing the system before
                     putting it into operation. Although Livermore implemented
                     a number of hazard controls, an analysis of the August
                     2004 exposure incident determined that conditions leading
                     to prior observed contaminations were not addressed
                     aggressively enough. Further, the analysis pointed out that
                     appropriate hazard controls including the evaluation and in-
                     situ testing of the vendor's radiation confinement system
                     had not been implemented.

                             Performing Work Within Hazard Controls

                     Livermore did not always ensure that work was performed
                     within established hazard controls. For example, in June
                     2007, workers at Livermore's National Ignition Facility
                     (NIF) did not hoist and rig heavy equipment within
                     established controls, resulting in what Livermore classified
                     as a near-miss of a significant accident. Specifically, a
                     suspended load shifted off its center of gravity and lodged
                     between nearby structures. An incident review found that
                     workers had not followed the controls established to
                     address hazards associated with hoisting and rigging the
                     equipment.

                     Livermore assessments determined that during three prior
                     hoisting and rigging events at NIF, personnel had failed to
                     follow established controls. Fortunately, these situations
                     did not result in an accident. The assessments findings,
                     however, demonstrated that NIF personnel did not always
                     use established controls. These recurrences should have




Page 2                                                        Details of Finding
________________________________________________________________

                     alerted Livermore that it was not meeting the ISM
                     requirement for ensuring that work was performed within
                     established controls.

                          Provide Feedback and Continuous Improvement

                     Livermore did not effectively use feedback and continuous
                     improvement processes to ensure that identified hazards
                     were addressed. Specifically, an NNSA appraisal of the
                     previously discussed radiation exposure incident noted that
                     between February 2003 and December 2004, Livermore
                     had issued 12 occurrence reports on similar radiological
                     incidents. Concerns about the adequacy of radiological
                     contamination controls continued to exist in January 2007,
                     when Lawrence Livermore National Security, LLC,
                     assumed responsibility for the Laboratory. During a "walk-
                     down" of Livermore, the new contractor concluded that
                     contamination controls needed to be improved to avoid
                     putting workers at increased risk to exposure. As recently
                     as January 2008, an independent assessment confirmed that
                     Livermore management had been informed about radiation
                     control problems, but had not taken the necessary action to
                     correct known problems.

Analysis of Safety   Livermore's ISM program was not fully effective because
Incidents            it did not perform adequate analyses to identify
                     and correct systemic safety issues and deficiencies.
                     Specifically, the Laboratory did not always analyze safety
                     accidents and incidents to define the extent of conditions or
                     their root causes and the appropriate corrective actions. In
                     addition, Livermore’s ability to analyze safety accidents
                     and incidents was hampered by missing and inconsistent
                     data in its management information systems. Finally,
                     NNSA's Livermore Site Office (LSO), which is responsible
                     for administering the Livermore contract, did not ensure
                     that performance measures associated with safety
                     encouraged improvement in Livermore's implementation of
                     ISM.

                                        Safety Issues Analyses

                     Livermore did not always analyze safety accidents and
                     incidents to identify the existence of systemic safety issues
                     and deficiencies. For example, Livermore did not perform
                     an extent of condition assessment of recurring safety
                     deficiencies associated with the use of non-standard
                     ladders. Instead, Livermore corrected deficiencies on


Page 3                                                         Details of Finding
________________________________________________________________



                     a case-by-case basis. An investigation board noted that,
                     prior to the July 31, 2006, accident, several opportunities to
                     identify the hazards associated with non-standard ladders
                     existed, but Livermore closed out the findings without
                     fixing the problem. However, it was only after the 2006
                     accident that Livermore performed an assessment of fixed
                     ladders; and determined that 164 unsafe ladders needed to
                     be removed from service or repaired.

                     In order to effectively develop and implement hazard
                     controls and to achieve continuous safety improvement,
                     ISM guidance recognizes that it is important for
                     organizations to identify the root cause of known safety
                     issues and deficiencies. However, Livermore did not
                     always perform root cause analyses of similar or systemic
                     safety accidents and incidents that could have prevented
                     their recurrence. In the case of four workers who were
                     exposed to radiation levels above control limits, Livermore
                     had not performed root cause analyses of eight previous
                     occurrences when radiation levels were above control
                     limits in the waste handling process area.

                     While Livermore had taken a number of corrective actions
                     to minimize the possibility of leaks from the waste
                     processing glove-box, an incident investigation conducted
                     after the four workers had been exposed found that these
                     corrective actions were ineffective. The investigation also
                     concluded that root cause analysis had not been
                     systematically used to evaluate contamination issues during
                     operations. The investigation concluded that the primary
                     cause of the incident was that Livermore's formal
                     acceptance and testing of the vendor's confinement system
                     was less than adequate.

Missing and          Livermore's ability to analyze safety accidents and
Inconsistent Data    incidents was also hampered by missing and inconsistent
                     data. Livermore used its Issues Tracking System (ITS) to
                     track safety deficiencies and issues. The ITS provides a
                     centralized database for managing deficiencies, issues and
                     corrective actions arising from assessments and events.
                     The data in ITS are also used to identify trends and analyze
                     cross-directorate issues and deficiencies Laboratory-wide.
                     However, an internal Livermore report noted that not all
                     safety issues have been entered into ITS and that some
                     information was entered inconsistently. For instance, in



Page 4                                                         Details of Finding
________________________________________________________________

                     August 2007, Livermore reported that 64 percent of the
                     issues tracked in the Department's Noncompliance
                     Tracking System (NTS) could not be confirmed in ITS.
                     The NTS is a database for Department contractors to report
                     unsafe actions or conditions that possibly violate nuclear
                     safety requirements for protecting workers and the public.

                     In other cases, data entered into ITS was not always
                     consistent. For example, 24 percent of deficiencies entered
                     into ITS did not clearly specify the areas of non-
                     compliance. Although Livermore has recently
                     implemented procedures that should ensure all NTS reports
                     are entered into ITS, it had not established needed controls,
                     such as appropriate edit checks. Livermore has provided
                     additional training to employees who enter data that should
                     improve data consistency. In addition, Livermore was
                     developing procedures to address the absent controls
                     indentified during the audit. However, without complete
                     and consistent data, ITS analyses may not accurately
                     identify systemic safety issues or facilitate the
                     identification of the root cause of safety issues and
                     deficiencies.

                     Additionally, Livermore's ITS database did not show
                     whether issues and deficiencies previously reported as
                     being corrected had recurred. Such data and use of ITS to
                     determine the frequency and recurrence of safety issues and
                     deficiencies are vital to effective analyses to identify
                     systemic weaknesses over multiple years and the impact of
                     corrective actions.

                                    Safety Performance Measures

                     Neither NNSA nor LSO ensured that performance
                     measures associated with safety encouraged improvement
                     in Livermore's implementation of ISM. Even though
                     Livermore had a higher than average rate for illnesses and
                     injuries, LSO did not establish performance measures that
                     quantified an expectation for reducing illnesses and injuries
                     at Livermore. For example, from FYs 2004 through 2007,
                     Livermore's performance measures related to safety
                     included measures such as "Achieve continual
                     improvement in ISM."




Page 5                                                        Details of Finding
________________________________________________________________

                     Prior to FY 2003, LSO had established quantifiable
                     performance metrics for Livermore such as radiation dose
                     levels to workers and the public, and exposures to
                     chemical, physical, and biological agents. LSO explained
                     that, as part of NNSA's reengineering of the performance
                     measures, LSO simplified the Laboratory's performance
                     measures and evaluation process. For FY 2003 and
                     beyond, the new performance plan consisted of nine high
                     level performance objectives that were segregated into two
                     categories: Mission, and Management and Operations
                     which included safety. Specifically, LSO identified
                     measures to encourage improvement of safety performance
                     with emphasis on three areas that were considered high
                     priority: feedback and improvement, nuclear safety, and
                     emergency preparedness.

                     In addition, LSO could not adequately explain how it used
                     performance ratings or fees to encourage implementation of
                     ISM at Livermore. For example, Livermore's contract
                     provides for a 50 to 26 percent reduction, or no reduction if
                     warranted by mitigating factors, in the award fee for a
                     significant accident similar to the one that occurred in
                     2006. However, Livermore was rated as satisfactory and
                     awarded 80 percent of the available fee for operations
                     performance, which included safety, in FY 2006, the same
                     rate and award that was given in FYs 2005 and 2007 when
                     no significant accidents occurred. There was no
                     documentation available to show that LSO had considered
                     the accident as part of the operations performance
                     evaluation. Furthermore, LSO officials were not aware of
                     any mitigating factors that would have warranted a
                     reduction in the penalty.

                     The Department's Integrated Safety Management System
                     Guide (Guide) provides suggestions for performance
                     measures that can be used to implement and develop ISM.
                     For example, the Guide suggests that field elements, such
                     as LSO, should modify contractor performance measures
                     annually to determine how effectively the contractor has
                     implemented ISM and to reflect improved performance.
                     Had LSO modified performance measures and adjusted
                     awards to encourage improvement for implementing ISM,
                     some illnesses and injuries may have been avoided.




Page 6                                                        Details of Finding
________________________________________________________________

                      In FY 2008, LSO revised the performance measures to
                      quantifiable performance measures which have been
                      incorporated in the Performance Evaluation Plan. These
                      measures were established to ensure that the Laboratory
                      continues to strive for improvements in Environment,
                      Safety and Health.

Cost of Ineffective   Over the past four years, Livermore has sustained higher
Safety                than average injury rates within the Department. Until
                      Livermore implements an effective ISM system, workers
                      may suffer from illnesses and injuries that could have been
                      avoided. In addition, unnecessary costs related to illnesses
                      and injuries will continue to be incurred directly through
                      lost work hours and also indirectly in support costs.


RECOMMENDATIONS       We recommend that the Manager, LSO, ensure that
                      Lawrence Livermore National Laboratory:

                         1. Improve safety tracking capability so that it:
                               a. identifies safety issues, incidents and
                                  deficiencies that recur; and,
                               b. contains complete and consistent data.

                         2. Performs appropriate analyses, including extent of
                            condition and root cause analyses that identify
                            systemic safety issues and their causes.

                      We also recommend that the Manager, LSO:

                         3. Annually adjust Livermore's safety performance
                            measures to show continuous improvement in
                            implementing ISM; and,

                         4. Adjust performance fees, as appropriate, to reflect
                            safety contractual requirements.

MANAGEMENT            Management generally agreed with the report and
REACTION              corresponding recommendations; however, they disagreed
                      with our statement regarding safety performance measures
                      and believed that the examples cited, relevant to
                      performance measures, were misleading. While it
                      acknowledged that Livermore's contract provides for a
                      unilaterally reduced fee, management stated that the
                      contract did not require a 50 to 26 percent reduction in the
                      award fee for a significant accident, similar to the one that



Page 7                                      Recommendations and Comments
________________________________________________________________

                     occurred in 2006. In addition, management stated that the
                     Laboratory received 80 percent of the available fee earned
                     for 2005 – 2007 based on overall operations performance,
                     which included performance measures unrelated to safety.

                     NNSA plans to address our recommendations by
                     developing and coordinating appropriate corrective
                     measures, not only for Livermore, but for the NNSA
                     complex as a whole. Management comments are included
                     in Appendix 3.


AUDITOR COMMENTS     We agree that the contract does not require a specific percentage
                     reduction in award fee provided there are mitigating factors. We
                     also acknowledge that Livermore received a reduced award fee for
                     the operations performance measure that included safety, security,
                     environmental management and counterintelligence. However, our
                     concern is that LSO could not demonstrate how it assessed
                     contractor ISM performance and used performance measures to
                     improve safety even though Livermore had a higher than average
                     illness and injury rate. In particular, we found no evidence that
                     LSO had considered the 2006 ladder accident cited in this report as
                     part of the FY 2006 and FY 2007 performance evaluations. The
                     ladder accident would be considered a second degree performance
                     failure. The Livermore contract provided for the award fee to be
                     reduced by 50 to 26 percent for such accidents with consideration
                     for any mitigating factors. LSO management could not provide
                     evidence concerning the existence of any mitigating factors.




Page 8                                                              Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine if Lawrence
              Livermore National Laboratory (Livermore) has fully implemented
              an Integrated Safety Management (ISM) system.

SCOPE         The audit work was performed between March 2007 and
              April 2008. We conducted work at the NNSA's Livermore Site
              Office (LSO) and Livermore. Audit work was limited to the
              implementation of ISM between FYs 2004 and 2007.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed regulations and policies and procedures relevant
                     to the Department's Integrated Safety Management
                     systems;

                 •   Reviewed specific guidance and policies and procedures;

                 •   Held discussions with the LSO and Livermore officials;
                     and,

                 •   Reviewed specific planning documents, analyses, and
                     reports relating to safety.

                     We conducted this performance audit in accordance with
                     generally accepted Government auditing standards. Those
                     standards require that we plan and perform the audit to
                     obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions based on
                     our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our findings and
                     conclusions based on our audit objectives. The audit
                     included tests of internal controls and compliance with laws
                     and regulations to the extent necessary to satisfy the audit
                     objective. Because our review was limited, it would not
                     necessarily have disclosed all internal control deficiencies
                     that may have existed at the time of our audit. Also, we
                     evaluated the Department's implementation of the
                     Government Performance and Results Act of 1993 as they
                     related to the audit objective. Finally, we did not rely upon
                     automated data processing information to accomplish our
                     audit objective. As discussed in the body of this report, our
                     audit disclosed that missing and inconsistent data hampered
                     analyses of safety accidents and incidents.

                     Management waived an exit conference.


Page 9                                   Objective, Scope, and Methodology
Appendix 2

                            RELATED AUDIT REPORTS

The Office of Inspector General and the Government Accountability Office have previously
reported on safety programs at Department of Energy facilities.

Office of Inspector General

   •   The report on Beryllium Surface Contamination at the Y-12 National Security
       Complex (DOE/IG-0783, December 2007) found that the Y-12 National Security
       Complex had not consistently implemented key controls of its Beryllium Disease
       Prevention Program in non-beryllium operations areas. Specifically, the Y-12
       National Security Complex, when surface contamination was found outside
       operational areas, had not always (a) posted signs alerting workers to the potential
       for beryllium surface contaminations, and (b) performed or documented hazard
       assessments for beryllium contamination. The report also identified a gap in the
       Department’s regulations which do not address surface contamination found
       outside beryllium operational areas.

   •   The report on Beryllium Controls at the Oak Ridge National Laboratory
       (DOE/IG-0737, September 2006) found that the Oak Ridge National Laboratory
       did not properly manage activities related to beryllium contaminated equipment in
       Building 9201-2, which is located at the Oak Ridge National Laboratory. In
       particular, beryllium contaminated equipment was transferred to non-beryllium
       areas; employees working with contaminated equipment were not fully identified
       and notified; transferred equipment was not labeled appropriately; and, the
       building was not posted as a potential contamination area.

   •   The report on Inspection of K-25 Type A Accident Investigation (S98IS004,
       November 1997) found that five incidents involving welders’ clothing burning or
       catching fire and resulting in medical treatment at Department Oak Ridge sites had been
       reported in a management data system; however, key fire protection personnel at Oak
       Ridge were not aware of the reported incidents prior to the February 1997 welder fatality
       that was the subject of our review. We also found that the current revision of a national
       standard that contained a specific requirement that welders’ protective clothing “shall be
       selected to minimize the potential for ignition, burning, trapping hot sparks, or electric
       shock” was not incorporated into the Department’s contract with the pertinent site
       contractor.

   •   The report on Summary Results of the Inspection of Issues Regarding the Scope of the
       Accident Investigation of the TRISTAN Fire at the Brookhaven National Laboratory
       (DOE/IG-0386, March 1996) found that the Type B Accident Investigation Board that
       investigated a March 1994 fire at the Brookhaven National Laboratory did not adequately
       address specific management systems and organizations as a root cause. Without a
       thorough root cause analysis of specific management systems, deficiencies in the exercise
       of oversight responsibilities by “upstream” management organizations may not be
       identified and corrected. Limited experience and training in accident investigation and,


Page 10                                                           Related Audit Reports
Appendix 2

      thus, root cause analysis may have contributed to the Board conducting an accident
      investigation that did not adequately address specific management systems and
      organizations.

Government Accountability Office (GAO)

   • Nuclear and Worker Safety: Actions Needed to Determine the Effectiveness of
     Safety Improvement Efforts at NNSA's Weapons Laboratories (GAO-08-73
     October 2007). GAO noted that the nuclear weapons laboratories have
     experienced persistent safety problems, stemming largely from long-standing
     management weaknesses. GAO's review of nearly 100 reports issued since 2000
     found that the contributing factors to these safety problems generally fall into
     three areas: (1) relatively lax laboratory attitudes toward safety procedures; (2)
     laboratory inadequacies in indentifying and addressing safety problems with
     appropriate corrective actions; and, (3) and inadequate oversight by NNSA site
     offices. NNSA faces two principle challenges in its continuing efforts to improve
     safety at the weapons laboratories. First, the agency has no way to determine the
     effectiveness of its safety improvement efforts, in part, because those efforts
     rarely incorporate outcome-based performance measures. Secondly, the recent
     shifts in NNSA's oversight approach to rely more heavily on contractors' own
     safety management controls. Continuing safety problems, coupled with the
     inability to clearly demonstrate progress in remedying weaknesses, make it
     unclear how this revised system will enable NNSA to maintain an appropriate
     level of oversight of safety performance.




Page 11                                                        Related Audit Reports
Appendix 3




Page 12      Management Comments
Appendix 3 (Continued)




Page 13                  Management Comments
                                                                    IG Report No. DOE/IG-0797


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date ______________________________

Telephone                                     Organization          __________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
